No.

In the Supreme Court of the United States

ROBERT WHITE,
Pro se
Petitioner;
v.

KUBOTEK CORPORATION;
KUBOTEKUSAINC.,
Respondents.

On Petition for a Writ of Certiorari
To the United States Court of Appeals
for the First Circuit

PROOF OF SERVICE

Robert White -pro se Petitioner
HCR3 Box 11
Boise City, OK 73933
(US Mail only, no Special Carrier
delivery to this rural mail box)
PH: 806.683.4743
email: rstorevwhite@gmail.com

Proof of Service
I, Robert White, pro se, declare and certify that on January 15, 2021,1 served one
copy of my Petition for a Writ of Certiorari and one copy of the accompanying Appendix and
one copy of the attached Motion to Proceed In Forma Pauperis on opposing counsel to the
proceeding below, who is the only party requiring service, by depositing an envelope
containing the above documents in the United States mail with first-class postage prepaid
and addressed to:
On behalf of Kubotek
Mark W. Powers, Esq.
BOWDITCH & DEWEY, LLP
311 Main Street P.O. Box 15156
Worcester, MA 01615-0156
Telephone: 508-926-3427
E-mail: mpowers@bowditch.com
By,
Robert White - pro se
HCR 3 Box 11
Boise City, OK 73933
PH: 806.683.4743
email: rstorevwhite @ gmail. com

